Report No. DODIG-2013-048      February 20, 2013




         Quality Control Review of the
       PricewaterhouseCoopers, LLP and
      the Defense Contract Audit Agency
           FY 2010 Single Audit of the
         Institute for Defense Analyses
Additional Information and Copies
The Department of Defense, Office of the Assistant Inspector General for Audit Policy
and Oversight, prepared this report. To obtain additional copies of the final report, visit
www.dodig.mil/audit/reports or contact the Office of the Assistant Inspector General for
Audit Policy and Oversight at (703) 604-8760 or fax (571) 372-7454.

Suggestions for Reviews
To suggest or request reviews, contact the Office of the Assistant Inspector General for
Audit Policy and Oversight by phone (703) 604-8760 (DSN 664-8760), by fax
(571) 372-7454, or by mail:

                       Department of Defense Inspector General
                       AIG-APO
                       ATTN: Suite 11D28
                       4800 Mark Center Drive
                       Alexandria, VA 22350-1500




Acronyms and Abbreviations

AICPA          American Institute of Certified Public Accountants
CAM            Contract Audit Manual
DCAA           Defense Contract Audit Agency
FOUO           For Official Use Only
OMB            Office of Management and Budget
R&D            Research and Development
                                              INSPECTOR GENERAL
                                               DEPARTMENT OF DEFENSE
                                               4800 MARK CENTER DRIVE
                                            ALEXANDRIA, VIRGINIA 22350-1500




                                                                                                     February 20, 2013

Director
Defense Contract Audit Agency

Branch Manager
Chesapeake Bay Branch Office
Defense Contract Audit Agency

Treasurer
Institute for Defense Analyses

SUBJECT: Quality Control Review of the PricewaterhouseCoopers, LLP and the Defense
         Contract Audit Agency FY 2010 Single Audit of the Institute for Defense Analyses
         (Report No. DODIG-2013-048)

       We are providing this report for your review and comment. We considered management
comments on a draft of this report when preparing the final report. DCAA management
comments were partially responsive; therefore we request additional comments on
Recommendation 1a. by March 22th, 2013. As the cognizant Federal agency for the Institute for
Defense Analyses (the Institute), we performed a review of the PricewaterhouseCoopers, LLP
and the Defense Contract Audit Agency (DCAA) single audit and supporting working papers for
the audit period September 26, 2009, through September 24, 2010. The purpose of our review
was to determine whether the single audit was conducted in accordance with auditing standards 1
and the auditing and reporting requirements of the Office of Management and Budget (OMB)
Circular A-133, “Audits of States, Local Governments, and Non-Profit Organizations.”
Appendix A contains additional background, scope, and methodology of the review.

Background. The Institute is a nonprofit corporation, in Alexandria, Virginia, that operates
three federally funded research and development (R&D) centers to provide objective analyses of
national security issues, requiring scientific and technical expertise, and to conduct related
research on other national challenges. Two of the federally funded R&D centers are sponsored
by DoD and one is sponsored by the National Science Foundation. The Institute expended
$226.8 million in Federal awards for the fiscal year ended September 24, 2010, under one
Federal program, the R&D cluster. Of the $226.8 million, $215.8 million was expended for DoD
programs.




1
  Auditing standards include both Government Auditing Standards and the American Institute of Certified Public Accountants’
audit standards.
The PricewaterhouseCoopers office in McLean, Virginia, and the DCAA Chesapeake Bay
Branch Office performed a coordinated audit. PricewaterhouseCoopers was responsible for the
audit of the financial statements and the Schedule of Expenditures of Federal Awards. DCAA
performed the audit of the R&D program cluster. Appendix B lists the compliance requirements
that the DCAA considered applicable to the FY 2010 single audit.

Review Results. DCAA did not comply with Circular A-133 requirements, auditing
standards, and DCAA guidance for the FY 2010 single audit. Specifically, the auditors did not
adequately plan, perform, and document the audit procedures to support their conclusions on the
ten compliance requirements applicable to the R&D cluster (Finding A). We also identified
deficiencies in the performance of fraud risk assessment procedures (Finding A) and the
completion of the Circular A-133 report (Finding B). Therefore, additional audit work is needed
before Federal agencies can rely on the audit for assurance that the Institute managed Federal
awards in compliance with laws, regulations, and award provisions.

The PricewaterhouseCoopers audit of the financial statements and Schedule of Expenditures of
Federal Awards met auditing standards and Circular A-133 requirements.

The Institute generally met Circular A-133 requirements except that the corrective action plan
was not submitted with the single audit reporting package when it was initially filed with the
Federal Audit Clearinghouse (Finding B).

Management Comments and DoDIG Response. The Defense Contract Audit Agency
and the Institute agreed to take the recommended actions. DCAA management comments were
partially responsive; therefore additional comments are requested on Recommendation 1a.
Management comments are included in their entirety at the end of this report.

Finding A. Planning, Performance, and
Documentation of the Federal Program Audit
DCAA did not adequately plan the audit because the sampling methodology did not comply with
auditing standards and Circular A-133 requirements for testing internal control over and
compliance with each applicable compliance requirement in the R&D program cluster. In
addition, the DCAA auditors did not perform and document adequate internal control review
procedures or compliance testing to support audit conclusions on each requirement. The auditors
also did not plan and perform adequate fraud risk assessment procedures. Because of these
deficiencies, the audit lacked sufficient and appropriate evidence to support DCAA’s conclusions
on internal control and opinion on compliance. Additionally, the audit does not provide Federal
program managers with information needed to ensure accountability over program funds. As a
result, Federal agencies cannot rely on the audit to manage and monitor program awards.

Audit Planning. DCAA did not adequately plan the audit because the sampling approach did
not ensure that the auditors’ sample was representative of the universe of R&D awards.
Guidance on sampling is contained in the auditing standards and the American Institute of


                                                2
Certified Public Accountants (AICPA) Audit Guide, “Government Auditing Standards and
Circular A-133 Audits,” (AICPA Circular A-133 Audit Guide). The guidance provides sampling
considerations and documentation requirements to ensure that the sampling approach used in the
single audit provides sufficient and appropriate evidence. The guidance covers ensuring that the
sample population is appropriate for the audit objective, that the sample size is consistent with
the determined risk of noncompliance, and that the sample selection process results in a sample
that is representative of the universe. In addition, the Circular A-133 Compliance Supplement
Part 5, “Clusters of Programs,” provides specific sampling guidance for the R&D program
cluster and states that the sample selected should come from a variety of award sizes, types, and
funding sources. This guidance is intended to address the unique factor that the cluster is
normally composed of awards from many Federal agencies and also ensures that the sample is
drawn from the entire universe of awards to provide appropriate coverage for all Federal
agencies.

The Institute’s awards and contracts are all considered to be a part of one major program, the
R&D cluster. Based on our review of the working papers and discussions with DCAA, we
concluded that the auditors did not have a clear understanding of the R&D program cluster and
the testing required to be performed. The sampling approach did not ensure that the auditors’
sample was representative of the universe of R&D awards. Rather, DCAA performed a risk-
based assessment of the Institute’s awards and concluded that only three contracts needed to be
tested. As a result, the sample was not representative of the universe because all Federal agency
awards did not have an equal chance of being included in the transaction test sample. Therefore,
the testing performed did not provide appropriate evidence to support the auditors’ opinion on
compliance with the requirements.

Performance and Documentation of Internal Control and Compliance Testing of
Federal Requirements. In addition to the overall deficiency in the sampling approach used,
DCAA failed to perform the review of internal controls and compliance of the R&D cluster in
accordance with Circular A-133 requirements, auditing standards, and DCAA guidance.
Specifically, the auditors did not perform and document adequate procedures on internal controls
and compliance with activities allowed/allowable cost principles; cash management; period of
availability; procurement, suspension, and debarment; subrecipient monitoring, and the special
tests and provisions requirements. DCAA also did not perform adequate compliance testing for
the equipment and real property requirement or internal control testing for the level of effort and
reporting requirements. During our site visit, we gave the auditors opportunities to provide
additional explanations and support for the audit procedures performed; however, the auditors
were unable to provide additional information to mitigate the deficiencies identified.

Auditing standards and Circular A-133 require the auditor to perform risk assessment procedures
to obtain an understanding of internal control over compliance and to evaluate the design and
implementation of internal controls over compliance for each applicable requirement. The
purpose of the procedures is to determine whether the controls are capable of preventing,
detecting, and correcting material noncompliance. As part of the review of internal controls, the
auditor must also identify and test the operating effectiveness of key internal controls they intend
to rely on in order to assess the risk of noncompliance due to the control environment. The
auditor is required to document the risk assessment procedures performed, the results obtained,



                                                 3
and the conclusions reached. This assessment is used to establish the nature, timing, and extent
of compliance testing needed to obtain sufficient and appropriate evidence to support the audit
conclusions on compliance with laws, regulations, and the provisions of contracts or grant
agreements that may have a direct and material effect on its major program.

Auditing standards and DCAA policies and procedures require that audit documentation be
appropriately detailed to provide a clear understanding of the work performed, the evidence
obtained, and the conclusions reached. The documentation and audit evidence should be in
sufficient detail to enable an experienced auditor with no previous connections to the audit to
understand the nature, timing, extent, and results of audit procedures performed that supports the
significant judgments and conclusions. In addition, audit documentation should be appropriately
organized to provide a clear link to the findings, conclusion, and recommendations.

         Activities Allowed/Unallowed and Allowable Costs/Cost Principles
Compliance Requirements. The DCAA auditors did not perform adequate audit procedures
to determine the Institute’s internal control over and compliance with the activities
allowed/unallowed and allowable costs/cost principles compliance requirements. DCAA
obtained an understanding of the Institute’s internal controls over compliance, but the working
paper documentation did not provide evidence of any internal control testing performed. In
addition, the DCAA auditors did not perform adequate tests of compliance on FY 2010 labor
costs. As stated in the Audit Planning section of this report, the DCAA auditors planned to test
three contracts to support conclusions on internal control over and compliance with
requirements. However, for the activities allowed/unallowed and allowable costs/cost principles
compliance requirements, the auditors limited the testing of direct labor costs to only one
contract. As a result, DCAA excluded $70 million of direct labor costs, representing 31 percent
of total Federal expenditures from the testing population. The R&D program cluster is
composed mainly of labor costs; therefore, DCAA should perform additional testing of labor
charges to the Federal program to ensure the Institute was in compliance with the activities
allowed/allowable cost principles.

During our review, we also noted inconsistencies between the working papers and audit report
related to questioned costs. Specifically, DCAA did not report all questioned costs or document
in the working papers the basis for not reporting the questioned costs. When asked, the DCAA
auditors explained that some items were mistakenly excluded from the report, and other costs
were excluded because they were considered minimal. DCAA should clearly document in the
working papers the basis for any questioned costs not included in the audit report.

        Cash Management. The DCAA auditors did not perform adequate audit procedures
to determine the Institute’s internal control over and compliance with the cash management
requirements for cost-reimbursement contracts. The objective of this requirement for
organizations funded on a reimbursement basis is to verify that program costs are paid for by the
organization before reimbursement is requested from the Federal Government.

The DCAA auditors obtained and documented an understanding of the Institute’s internal
controls; however, the working paper documentation did not provide evidence that DCAA
identified and performed tests of key internal controls that the Institute had in place to ensure



                                                  4
compliance with cash management requirements. According to the supervisory auditor, the
testing of internal controls was limited to reviewing the Institute’s policies and procedures and
verifying that billings were prepared in accordance with the Institute’s established billing
practices. Although there is evidence in the DCAA working papers that the auditors performed
these reviews, there is no documentation to support that the reviews included the testing of key
internal controls relevant to the objectives of the cash management compliance requirement.
DCAA’s compliance testing did not demonstrate that the auditors verified that program costs
were paid before reimbursement was requested from the Federal Government. The supervisory
auditor stated the testing was limited to verifying that the costs contained in the vouchers
selected for review were supported by the Institute’s accounting records. This testing is not
relevant to the objectives for this requirement because it does not provide any evidence that the
Institute paid the costs before requesting reimbursement from the Government.

         Period of Availability. The DCAA auditors did not gain an adequate understanding of
internal controls or perform internal control and compliance testing for the period of availability
requirement. The only documentation in the audit files for the understanding of internal control
was the identification of control characteristics rather than the specific controls the Institute has
in place to ensure compliance with this requirement. There was no documentation to support
that the auditor interviewed Institute personnel, inspected internal control manuals, or observed
activities to gain an understanding of the control processes. The documentation also did not
provide evidence that the auditor identified and evaluated the design and implementation of any
internal controls or identified key controls for testing. The DCAA auditors concluded that the
Institute did not have contracts that ended in FY 2010; therefore, they did not perform any audit
procedures for the review of internal control and compliance for the period of availability
requirement. Our independent review identified one contract that ended in FY 2010 that DCAA
excluded from their testing as noted in the Audit Planning section of this report. In addition, the
Circular A-133, “Compliance Supplement,” and DCAA audit program guidance require the
auditors to test transactions and adjustments that were recorded during the period of availability
and verify that the underlying obligations occurred within the period of availability. However,
there was no evidence in the working paper documentation that this testing was performed. As a
result, there is no evidence to support that the Institute is complying with period of availability
requirements. The failure to properly test compliance with the period of availability compliance
requirement could result in unallowable costs being charged to Federal programs.

        Procurement, Suspension, and Debarment. The DCAA auditors review of
internal controls and compliance was not adequate to support audit conclusion on this
requirement because the audit sampling was not performed and documented in accordance with
Circular A-133 requirements and DCAA guidance. The AICPA Circular A-133 Audit Guide
provides the guidance for planning, performing, and evaluating audit samples. In addition, the
guide provides suggested minimum sample sizes designed to provide sufficient appropriate audit
evidence to support conclusions on internal controls over and compliance with requirements.
Auditors may use professional judgment to determine whether larger sample sizes are warranted,
based on the results of other procedures performed and the risks and complexities of the
sampling population. The DCAA Contract Audit Manual (CAM) Chapter 4, “General Audit
Requirements,” section 600, “Audit Sampling and Other Analytical Procedures,” provides
guidance for selecting appropriate sample sizes. The guidance states that auditors should



                                                  5
document a sampling plan and that the sample sizes should be sufficiently large enough to
reasonably provide sample results reflective of the true universe results.

To test the Institute’s internal controls and compliance with this requirement, the DCAA auditors
selected a sample of 4 items from a universe of 1,980 procurement transactions. The working
paper documentation did not include a sampling plan to explain the basis for how the sample size
selected would provide sufficient appropriate evidence to support audit conclusions. The DCAA
auditors did not follow the AICPA Circular A-133 Audit Guide on minimum sample sizes or
DCAA’s policy when documenting and selecting the sample size for testing internal controls and
compliance. As a result, the working papers did not include sufficient evidence to support
DCAA’s conclusions on the Institute’s compliance with Federal procurement regulations.

         Subrecipient Monitoring. The DCAA auditors did not perform and document
adequate procedures to support their conclusions on the Institute’s internal controls over and
compliance with the subrecipient monitoring requirement. The objectives of this compliance
requirement include determining whether the pass-through entity properly identified Federal
award information and compliance requirements to the subrecipient, monitored subrecipient
activities during the award period to provide reasonable assurance that the subrecipient
administered Federal awards in compliance with requirements, and ensured that required
subrecipient audits were performed and reviewed.

The working paper documentation indicates that the Institute uses a procurement checklist to
monitor their subrecipients. However, based on our review of the checklist, we could not
determine how it was used to satisfy the objectives of subrecipient monitoring. Specifically, the
procurement checklist did not document the Institute’s monitoring to ensure that the
subrecipients used Federal awards for authorized purposes; complied with laws, regulations, and
the provisions of contracts and grant agreements; and achieved performance goals. As a result,
there is no evidence in the working papers to support the Institute was monitoring subrecipient
activities during the award. The DCAA auditors documented a review of subrecipient audit files
to determine whether the Institute maintained copies of the subrecipient audit reports or a copy
of the subrecipient notification that no findings were reported. The DCAA auditors review noted
that the subrecipient audit reports and notifications were not being maintained in the audit files.
DCAA documented in the working papers that the Institute’s management asserts that they are
not notified of subrecipient audits results because they can monitor the outcomes through the
Federal Audit Clearinghouse. As a result, DCAA concluded that the Institute was complying
with the objectives of this requirement based on management’s assertions. However, the DCAA
working papers did not document evidence of audit procedures performed to verify the assertions
made by management.

Auditing standards require the auditors to obtain sufficient appropriate audit evidence by
performing audit procedures to support their conclusions. Inquiry of management alone
ordinarily does not provide sufficient appropriate audit evidence and is not sufficient to test the
operating effectiveness of controls. We asked the DCAA auditors what their basis was for
concluding that the Institute was reviewing subrecipient audit reports and were informed that
there was no explanation other than no findings were noted on the Institute’s program. The




                                                  6
auditor’s explanation is not considered sufficient to support conclusions that the Institute is
reviewing subrecipient audit reports.

The working paper documentation notes the Institute is responsible for monitoring $12 million
dollars in subrecipient expenditures. Based on our analysis of the working papers and
discussions with the auditors, we determined there is insufficient evidence to support the
auditors’ conclusions on the Institute’s compliance with subrecipent monitoring requirements.
As a result, there is no assurance that the $12 million dollars in subrecipent expenditures were
used for authorized purposes and in compliance with laws, regulations, and contract and grant
agreements.

        Special Tests and Provisions. The DCAA auditors did not obtain an adequate
understanding of internal controls or perform audit procedures to test internal controls and
compliance with this requirement. The specific requirements for special tests and provisions are
unique to each Federal program and are in the laws, regulations, and the provisions of contract or
grant agreements pertaining to the program. The DCAA auditors documented their review of the
Institute’s federally funded research and development center sponsoring agreements and
contracts. However, due to a lack of understanding of the special tests and provisions
requirement, DCAA identified multiple standard contract clauses that they planned to test in
other compliance requirements, but failed to properly identify and review any special tests and
provisions.

We determined that the sponsoring agreements included a special provision requiring the
Institute to obtain prior written approval from the sponsoring agency before Institute personnel
can work on contracts from agencies other than sponsoring agency (Federal Acquisition
Regulation 35.017, “Federally Funded Research and Development Center”). We also identified
other special tests and provisions in the Institute’s contracts such as key personnel requirements
and prior approval of consultant costs. As a result, we concluded that the procedures performed
by the DCAA auditors were not sufficient to identify the existence of special tests and
provisions.

       Equipment and Real Property. DCAA did not perform adequate audit procedures to
determine the Institute’s compliance with the equipment and real property compliance
requirement. The objectives of this requirement include verifying that the organization
maintains proper records, adequately safeguards and maintains equipment, and disposes of
equipment in accordance with Federal requirements.

The DCAA audit program and the AICPA Circular A-133 Audit Guide direct the auditor to
select a sample from the property records of all equipment identified as acquired under Federal
awards and physically inspect the equipment, including whether the equipment is appropriately
safeguarded and maintained. However, the DCAA auditors limited their sample population and
testing to only equipment items purchased on one contract during FY 2010.

To assess the significance of total equipment costs, we requested a listing of equipment
purchased with Federal funds. Based on the listing provided, the Institute is responsible for
safeguarding and maintaining equipment valued at $42 million. The DCAA auditors selected



                                                  7
their sample from a population valued only at $422,982, which represents approximately one
percent of the total Federal equipment. As a result, we determined that the auditor’s testing was
not sufficient to support their conclusions on the Institute’s compliance with this requirement.

In addition, the DCAA auditors’ working papers indicated that the Institute did not dispose of
any Federal equipment in fiscal year 2010; therefore, no audit procedures were performed.
Based on our independent inquiry with the Institute, we also found that the Institute was
authorized to make equipment dispositions in FY 2010. Therefore, the auditors should have
determined the materiality of equipment dispositions, and planned and performed further audit
procedures as needed to verify that dispositions were properly classified and reflected in the
property records.

Based on our review, we concluded that the DCAA audit procedures did not provide sufficient
evidence to support the conclusions on the Institute’s compliance with equipment requirements
for the use, management, and disposition of equipment acquired under Federal awards. Due to
the significance of the equipment costs, DCAA should perform additional procedures to assess
the Institute’s compliance with the equipment compliance requirement.

        Level of Effort and Reporting Compliance Requirements. DCAA obtained an
understanding of the Institute’s internal controls over compliance for the level of effort and
reporting requirements. However, there was no documentation to support that the auditor
performed any procedures for the review and testing of internal controls. The working papers
did not provide an audit trail between the description of internal controls, the controls to be
tested, and the evidence of the internal control testing performed. Because the auditor did not
perform an adequate review of internal controls over compliance, the auditor had no basis for
establishing the nature, timing, and extent of compliance testing needed to obtain sufficient
evidence to support the audit conclusions on compliance. In addition, the auditors did not
adequately document the compliance testing that was performed. The supervisory auditor had to
provide additional explanations and clarification on the work performed to determine the
Institute’s compliance with these requirements.

        Fraud Risk Assessment Procedures. DCAA did not perform sufficient fraud risk
assessment procedures during the planning and performance of the audit. The DCAA Circular
A-133 audit program procedures required the auditor to evaluate only the fraud risk indicators
identified in the DoD IG, “Handbook on Fraud Indicators for Contract Auditors.” The working
papers documented that the evaluation of fraud indicators was limited to a review of “Handbook
on Fraud Indicators for Contract Auditors.” Based on this review, DCAA concluded that there
were no identified fraud risks.

Circular A-133 requires that the single audits be performed in accordance with government
auditing standards applicable to financial statements, which incorporate the AICPA auditing
standards. The AICPA auditing standard, AU §316, “Consideration of Fraud in a Financial
Statement Audit,” requires the auditor to plan and perform the audit to obtain reasonable
assurance that material misstatements and noncompliance, whether caused by error or fraud, are
detected. Specifically, as a means of obtaining information needed to identify fraud risk areas,




                                                8
the standards require, among other procedures, inquiries of management during the planning
process to determine if they have knowledge of any fraud or suspected fraud affecting the entity.

The need to update the Contract Audit Manual terminology on communicating matters related to
internal control was previously reported in DODIG Report No. D-2011-6-004, “Report on
Quality Control Review of the PricewaterhouseCoopers LLP and the Defense Contract Audit
Agency FY 2008 Single Audit of the Charles Stark Draper Laboratory, Incorporated,”
February 28, 2011, and DODIG Report No. D-2011-6-002, “Report on Quality Control Review
of the Deloitte & Touche and the Defense Contract Audit Agency FY 2008 Single Audit of the
Aerospace Corporation,” October 29, 2010.

DCAA management concurred with our findings and recommendations and has taken corrective
actions. DCAA has revised its’ Circular A-133 standard audit program to include the procedures
required by AU §316. DCAA also revised CAM Chapter 13, “Audits at Educational Institutions,
Nonprofit Organizations, and Federally Funded Research and Development Centers (FFRDCs),”
to include guidance on performing fraud risk assessment procedures and reporting in the
Circular A-133.

Conclusion. The DCAA auditors’ work does not meet the requirements of the auditing
standards and Circular A-133 audit requirements. As a result, Federal agencies and pass-through
entities cannot rely on the audit for assurance that the Institute managed Federal awards in
compliance with laws, regulations, and award provisions. Additional audit procedures must be
performed before the audit report can be used by Federal agencies and pass-through entities to
monitor and manage awards to the Institute. In addition, the deficiencies disclosed by our review
and prior quality control reviews, noted in Appendix A, indicate DCAA management needs to
implement more effective quality control procedures for the Circular A-133 audits and provide
additional training in auditing standards and Circular A-133 requirements to auditors performing
Circular A-133 audits.

Finding B. Circular A-133 Reporting Package
DCAA did not obtain and incorporate in their report the Institute’s comments on the findings as
required by auditing standards and Circular A-133 requirements. In addition, the Institute did
not include its corrective action plan in the reporting package submitted to the Federal Audit
Clearinghouse (the Clearinghouse). Also, DCAA did not comply with DoD regulations when
marking the report “For Official Use Only” (FOUO) and did not correctly prepare the data
collection form.

Corrective Action Plan. The DCAA auditors did not obtain the views from the responsible
officials’ at the Institute on the reported findings and any planned corrective actions. The audit
report indicated that the Institute’s corrective action plan in response to the findings would not be
incorporated because it was not practical due to the additional time required to complete the
audit work. Based on discussions with DCAA and the Institute, the auditors did not provide the
Institute the final reported findings until June 21, 2011. Consequently, the Institute did not have
sufficient time to review the findings, develop and incorporate a comprehensive corrective action
plan, and submit the Circular A-133 reporting package by the June 24, 2011, filing deadline.


                                                 9
Instead, the Institute submitted the reporting package without the corrective action plan required
by Circular A-133 reporting requirements.

Circular A-133 and auditing standards require auditors to obtain and report the views of
responsible officials concerning the findings, conclusions, and recommendations, and planned
corrective actions. The auditors should include in the report an evaluation of the comments
provided and an explanation for any disagreements. Obtaining the views of responsible officials
helps the auditors develop a report that is fair, complete, and objective. In addition, it provides
auditors the opportunity to address any disagreements with the auditee, which assists contracting
officers in their follow-up actions on reported findings. Circular A-133 requires the auditee to
prepare a corrective action plan to address each audit finding and to include it with the reporting
package submitted to the Clearinghouse.

The Institute took corrective actions on the FY 2010 single audit and submitted a revised
reporting package, including a corrective action plan, to the Clearinghouse on
September 26, 2011. The Institute’s actions were sufficient to address the deficiency. However,
because the corrective action plan was submitted after the DCAA audit report was issued, DCAA
has not addressed the Institute’s comments on the findings, conclusions, and recommendations.
As a result, DCAA should revise its report to address an evaluation of the Institute’s comments,
reasons for disagreements, or modifications to the report as required by auditing standards.

For Official Use Only. DCAA auditors prepared a Circular A-133 report that contained an
FOUO marking and informed the Institute they had no objection to the Institute removing the
marking. This procedure is not in compliance with DoD regulations and does not safeguard the
report from alteration. Further, a report marked FOUO limits the Institute’s ability to comply
with Circular A-133 requirements that require auditees to make the single audit report available
for public inspection.

The DCAA guidance requires that all audit reports not containing classified information be
marked as FOUO. Further, the guidance states that auditors should provide an electronic version
of Circular A-133 report and advise the auditee to remove the FOUO restrictions from the report
prior to incorporation in the reporting package submitted to the Clearinghouse. The FOUO
marking restricts release of the report to the public because the report may contain information
that is exempt from mandatory disclosure under the Freedom of Information Act. DoD
Manual 5200.01, “Information Security Program,” January 1997, states that it is the
responsibility of the document’s originator to determine at the time a document is created
whether the information may qualify for FOUO status and to ensure markings are applied as
required. When FOUO status is not warranted, the marking shall be removed by lining-through
or other appropriate means prior to the report being released outside of the Department of
Defense. When withholding criteria are met, the records shall be marked FOUO and the
recipient provided an explanation for the marking.

The DCAA guidance does not comply with DoD regulations because DCAA is identifying the
report as FOUO but directing the auditee to remove the marking. At the time the report is
created, DCAA must make a determination whether the FOUO marking applies and should not
include the marking when it is not warranted. To protect the integrity of reports, DCAA should



                                                10
not allow anyone other than an authorized DCAA official to change an audit report. Because
DCAA is providing an electronic copy of the report, auditees can redact or change pertinent
information in the report. DCAA must revise their current guidance regarding Circular A-133
audit reports to ensure report integrity and to comply with DoD regulations and Circular A-133
requirements.

Data Collection Form. The DCAA auditors did not correctly prepare the data collection form
because they failed to mark all the Institute’s contracts as part of the major program. Circular
A-133 states that the R&D cluster shall be considered one program. The Institute’s contracts are
all included in the R&D cluster. Since the Institute has only one major program, all contracts
should have been identified as part of the major program. Due to a lack of understanding of the
R&D cluster, DCAA failed to accurately identify several contracts as part of the major program.
As a result, the data collection form is not accurate and should be updated to properly reflect the
major program.

Recommendations, Management Comments, and Our
Response

1. We recommend that the Director, Defense Contract Audit Agency:


        a. Revise the Defense Contract Audit Agency Contract Audit Manual Chapter 13,
           “Audits at Educational Institutions, Nonprofit Organizations, and Federally
           Funded Research and Development Centers (FFRDCs),” to ensure the guidance
           conforms with DoD Regulation 5200.01 and Circular A-133 reporting
           requirements and protects the integrity of the audit report.

DCAA Comments. The Director, Defense Contract Audit Agency, office concurred to the
recommendation. DCAA agreed to protect the integrity of the audit report by no longer advising
the auditee to remove the FOUO restrictions from the report. However, DCAA stated they
would continue their policy to place the FOUO restrictive marking on all audit reports, including
Circular A-133 audit reports to prevent unauthorized public disclosure of sensitive, confidential,
or proprietary data. Management comments are included in their entirety at the end of this
report.

Our Response. The DCAA comments were partially responsive to our recommendation. The
DCAA planned action to continue placing the FOUO restrictive marking on Circular A-133 audit
reports does not meet the intent of the Single Audit Act or its implementation in Circular A-133.
The Single Audit Act and Circular A-133 require the audit report be made available for public
review. Therefore, Circular A-133 audit reports differ from other audit reports prepared by
DCAA for the contracting officer’s use in contract administration. In addition, Circular A-133
requires auditees that are subrecipients to submit the audit report to pass-through entities 2 when

2
 A pass-through entity means a non-Federal entity that provides a Federal award to a subrecipient to carry out a
Federal program.


                                                        11
the report discloses audit findings relating to the Federal awards the pass-through entity
provided. By issuing an audit report with an FOUO marking, DCAA is restricting the auditee’s
ability to comply with these requirements. As a result, DCAA should have a separate policy for
Circular A-133 audit reports. We request that DCAA reconsider its position on including the
FOUO restrictive marking on Circular A-133 audit reports.

       b. Develop or obtain a training program for auditors performing single audits,
          assess the technical abilities of auditors and supervisors assigned to perform
          single audits, and ensure that the appropriate level of supervision is
          commensurate with the technical assessment to ensure that the audits comply
          with Circular A-133 requirements.

DCAA Comments. The Director, Defense Contract Audit Agency, office agreed to take the
recommended actions. Management comments are included in their entirety at the end of this
report.

Our Response. DCAA comments were responsive to our recommendation. No additional
comments are needed.

2. We recommend that the Branch Manager, Chesapeake Bay Branch Office:


       a. Perform additional audit procedures in accordance with the requirements of
          Circular A-133 and government auditing standards to address the deficiencies in
          this report and determine the adequacy of the Institute for Defense Analyses’
          internal controls over and compliance with requirements.

       b. Revise the reporting package to reflect, at a minimum, the date the revised audit
          work was completed, the evaluation of the Institute’s corrective action plan, and
          the correction of the data collection form to reflect the identification of all
          contracts as part of the major program.

       c. Provide the revised audit reporting package to the Institute for submission to the
          Federal Audit Clearinghouse.

DCAA Comments. The Branch Manager, Chesapeake Bay Branch office agreed to take the
recommended actions. Management comments are included in their entirety at the end of this
report.

Our Response. DCAA comments were responsive to our recommendation. No additional
comments are needed.

3. We recommend that the Treasurer, Institute for Defense Analyses:

       a. Include the corrective action plan in all future reporting packages in accordance
          with Circular A-133 reporting requirements.



                                              12
Appendix A. Quality Control Review Process
Criteria, Scope, and Methodology
Public Law 98-502, “The Single Audit Act of 1984,” as amended, was enacted to improve the
financial management of State and local governments and nonprofit organizations by
establishing a uniform set of auditing and reporting requirements for all Federal award recipients
required to obtain a single audit. Circular A-133 establishes policies that guide the
implementation of the Single Audit Act and provides an administrative foundation for uniform
audit requirements of non-Federal entities administering Federal awards. Entities that expend
$500,000 or more in a year are subject to the Single Audit Act and audit requirements in Circular
A-133. Therefore, they must have an annual single or program-specific audit performed under
government auditing standards and submit a complete reporting package to the Federal Audit
Clearinghouse.

We reviewed the PricewaterhouseCoopers, LLP and the Defense Contract Audit Agency
FY 2010 single audit of the Institute for Defense Analyses and the reporting package that was
submitted to the Federal Audit Clearinghouse on September 16, 2011, using the 2010 edition of
the “Guide for Quality Control Reviews of OMB Circular A-133 Audits.” The Guide applies to
any single audit that is subject to the requirements of Circular A-133 and is the approved Council
of Inspectors General on Integrity and Efficiency checklist for performing quality control
reviews. The review was conducted in accordance with the Quality Standards for Inspection and
Evaluation. We performed the review from September 2011 through October 2012. The review
focused on the following qualitative aspects of the single audit:

             •    Qualification of Auditors,

             •    Independence,

             •    Due Professional Care,

             •    Planning and Supervision,

             •    Audit Follow-Up,

             •    Internal Control and Compliance testing,

             •    Schedule of Expenditures of Federal Awards, and

             •    Data Collection Form.




                                               14
Prior Quality Control Reviews
Since October 1, 2007, we performed two quality control reviews of DCAA Circular A-133
single audit and two of PricewaterhouseCoopers Circular A-133 audits. All audits contained
deficiencies resulting in findings and recommendations on audit planning/coordination,
performance, reporting, and documentation. Unrestricted IG DoD reports can be accessed at
http://www.dodig.mil/audit/reports.

DODIG Reports

DODIG Report No. D-2011-6-004, “Report on Quality Control Review of the
PricewaterhouseCoopers, LLP and the Defense Contract Audit Agency FY 2008 Single Audit of
the Charles Stark Draper Laboratory, Incorporated” February 28, 2011

DODIG Report No. D-2011-6-002, “Report on Quality Control Review of the Deloitte & Touche
and the Defense Contract Audit Agency FY 2008 Single Audit of the Aerospace Corporation, ”
October 29, 2010

DODIG Report No. D-2008-6-003, “Report on Quality Control Review of FY 2006 Single Audit
of Logistics Management Institute,” March 19, 2008

DODIG Report No. D-2008-6-002, “Quality Control Review of FY 2006 Single Audit of
Syracuse Research Corporation,” January 25, 2008




                                              15
Appendix B. Compliance Requirements

      OMB Circular A-133 Compliance             Applicable   Not Applicable
             Requirements

Activities Allowed/Unallowed                        X

Allowable Costs/Cost Principles                     X

Cash Management                                     X

Davis-Bacon Act                                                    X

Eligibility                                                        X

Equipment and Real Property Management              X

Matching, Level of Effort, Earmarking               X

Period of Availability of Federal Funds             X

Procurement, Suspension, and Debarment              X

Program Income                                                     X

Real Property Acquisition and Relocation                           X
Assistance
Reporting                                           X

Subrecipient Monitoring                             X

Special Tests and Provisions                        X




                                           16
Institute for Defense Analyses Comments




                      17
Defense Contract Audit Agency Comments




                    18
19
20
